Audit Report GR-70-06-002

Office of Justice Programs National Crime Scene Training Center Cooperative Agreement with the University of New Haven, West Haven, Connecticut

Audit Report GR-70-06-002


November 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of a cooperative agreement number 2002-LP-CX-K003 between the Office of Justice Programs (OJP) and University of New Haven (University).  The $2 million cooperative agreement, awarded on September 30, 2002, was for the University to establish a National Crime Scene Training Center to standardize the training of crime laboratory personnel, law enforcement agents, and states attorneys in crime scene knowledge and the procedures for recognition, collection, and preservation of evidence.

The National Crime Scene Training Center is a program under the Henry C. Lee Institute of Forensic Science (Institute), a non-profit corporation founded in 1999 and wholly owned by the University.  The Institutes mission is to provide the highest quality post-graduate training for law enforcement officers, forensic scientists, attorneys, teachers, and others with an interest in forensic science. The Institute also provides specialized services for attorneys, both state and private, who need expert forensic advice.  The Institute works in cooperation with the Universitys Forensic Science program and with the Connecticut State Forensic Laboratory to provide these services.  The Institute developed three courses especially for the National Crime Scene Training Center program; the basic, intermediate, and advanced crime scene courses form the programs core curriculum.  Separately, the Institute also has more advanced programs that are part of the Institute's existing training program.

We found that the University did not fully comply with the cooperative agreement requirements.  We reviewed its compliance with six essential agreement conditions and found material weaknesses in two of the six areas:  program income and cooperative agreement expenditures.  As a result of the deficiencies identified below, we are questioning $237,060 of program income and $429,300 of cooperative agreement funds.1

The University did not use $237,060 in program income for allowable program costs.

	The University did not properly account for $429,300 of tuition costs charged to the cooperative agreement, and the University charged agreement-funded students more than other students attending the same courses.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.

We discussed the results of our audit with University officials and have included their comments in the report as applicable.  In addition, we requested a response to our draft audit report. 

  



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related finds.